No. 19-1212
IIN
N THE
THE

fpupreme
Court of
of the
tie Einiteb
Supreme Court
United iptatez
States
_________
C
CHAD
HAD F. W
WOLF,
OLF, ACTING
ACTING S
SECRETARY
ECRETARY OF
H
HOMELAND
OMELAND S
ECURITY, et al.,
SECURITY,
Petitioners,
v.
INNOVATION L
AW L
AB, et al.,
INNOVATION
LAW
LAB,
Respondents.
_________
On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
_________

BRIEF OF AMICUS CURIAE
AMERICAN STATISTICAL ASSOCIATION
IN SUPPORT OF RESPONDENTS
_________
JASON A. L
EONARD
LEONARD
JASON
Counsel of Record
IIRA
RA M. F
EINBERG
FEINBERG
NITYA
N
ITYA ANAND
ANAND
VINCENT
LII
VINCENT L
H
OGAN L
OVELLS US LLP
LOVELLS
HOGAN
390 Madison Avenue
New York, NY 10017
(212) 918-3782
jason.leonard@hoganlovells.com

Counsel for
for Amicus
Amicus Curiae

TABLE OF CONTENTS
Page

TABLE OF AUTHORITIES...................................... iii
INTEREST OF AMICUS CURIAE
CURIAE............................ 1
INTRODUCTION AND SUMMARY OF
ARGUMENT .................................................... 2

ARGUMENT .............................................................. 4
I. DHS RELIES ON LIMITED STATISTICS IN SUPPORT OF THE IMPLEMENTATION OF ITS MIGRANT
PROTECTION PROTOCOLS ......................... 4
II.

DHS MAKES UNSUPPORTED ASSUMPTIONS CONCERNING THE
ASYLUM PROCESS, WHICH LIMIT
THE VALID CONCLUSIONS ONE
CAN DRAW FROM THE STATISTICAL DATA ....................................................... 7
A.

DHS Erroneously Suggests That
Nearly Half Of Northern Triangle
Asylum Seekers Who Pass Credible Fear Screening Lack Meritorious Asylum Claims .................................. 7

B.

DHS Cannot Draw Valid Conclusions Regarding Meritorious Asylum Cases Using In Absentia
Absentia
Rates ........................................................ 9

C.

DHS’s
DHS's 9% Asylum Grant Rate Is
Misleading And Does Not Reflect
the Merits of Unadjudicated Asylum Claims ............................................. 10

III. DHS ASYLUM STATISTICS ARE
TAINTED BY SELECTION BIAS ................ 13

(i)

11
ii
TABLE OF CONTENTS—Continued
Page

A.

B.

C.

DHS’s Reliance On Cases ComDHS's
pleted in FY2018 Fails To Account
For The Typical Completion Timeline In Asylum Cases ............................. 15
DHS's
DHS’s Reliance On FY2018 Statistics Alone Improperly Assumes
That One Fiscal Year Is Representative Of All Future Cases............... 17
DHS’s Selection Bias Is Analogous
DHS's
To Classic Examples Of Selection
Bias In The Statistics Literature .......... 19

IV.

THE REDUCTION IN MIGRANTS
ARRIVING AT THE SOUTHERN
BORDER CANNOT PROPERLY BE
CLAIMED TO REFLECT A REDUCTION IN MERITLESS ASYLUM
CLAIMS UNDER THE MPP ...................... 21

V.

STATISTICAL DATA GENERATED
AFTER THE MPP’S
MPP'S IMPLEMENTATION CANNOT BE USED TO JUSTIFY THE MPP .......................................... 24

CONCLUSION ......................................................... 24

111
iii
TABLE OF AUTHORITIES
Page(s)
CASES:
CASES:
Ass’n,
Brown v. Ent. Merchs. Ass'n,
564 U.S. 786 (2011)................................................ 22
Admissions, Inc. v. PresiStudents for Fair Admissions,
dent & Fellows of Harvard Coll.,
980 F.3d 157 (1st Cir. 2020) .................................. 22
COM LLC,
XYZ.COM
Verisign, Inc. v. XYZ.
848 F.3d 292 (4th Cir. 2017) ................................. 23
S
TATUTE:
STATUTE:

8 U.S.C. § 1225(b)(1) .................................................. 5
REGULATIONS:
REGULATIONS:
Aliens Subject to a Bar on Entry Under Certain Presidential Proclamations; Procedures for Protection Claims,
83 Fed. Reg. 55,934 (Nov. 9, 2018).......................... 6

8 C.F.R. § 208.16 ........................................................ 5
OTHER
OTHER AUTHORITIES:
AUTHORITIES:
American Immigration Council, Immigrants
Appear in Court: Setting the
and Families Appear
Record Straight (July 30, 2019), available
at https://www.americanimmigrationcouncil.org/research/immigrants-and-familiesappear-court ............................................................. 9
N.E. Breslow & N.E. Day, Intl
Int’l Agency for
Rsch. on Cancer, World Health Org., Statistical Methods In Cancer Research: Volume II—The Design and Analysis
Analysis of Cohort
Studies (1987) ........................................................ 20

iv
TABLE OF AUTHORITIES—Continued
Page(s)

Jordan Ellenberg, How Not to be Wrong: The
Power of Mathematical Thinking (2014) .............. 19
Executive Office for Immigration Review
(“EOIR”), U.S. Dep't
Dep’t of Justice, FY2018
("EOIR"),
Yearbook, available at https://www.justice.gov/eoir/file/1198896/download ...........10, 17, 18

Sharon L. Lohr, Sampling: Design and
Analysis (2d ed. 2010)............................................ 13
Analysis
Susan Carol Losh, Dependent and Independent Variables, The Wiley Blackwell Encyclopedia of Social Theory (2017)............................ 22
Marc Mangel & Francisco J. Samaniego,
Abraham Wald’s
Aircraft SurvivaAbraham
Wald's Work on Aircraft
bility, 79 J. Am. Stat. Ass'n
Ass’n 259 (1984)................. 19
A.J. McMichael, R. Spirtas & L. L. Kupper,
An Epidemiological Study of Mortality
An
within a Cohort of Rubber Workers, 196472, 16 J. Occupational Med. 458 (1974) ................ 20
Transactional Records Access Clearinghouse
– Immigration, Syracuse University,
—
Asylum Representation Rates Have Fallen
Asylum
Amid Rising Denial Rates (Nov. 28, 2017),
Amid
available at https://trac.syr.edu/immigration/reports/491/....................................................... 8

Transactional Records Access Clearinghouse
– Immigration, Syracuse University,
—
Immigration Court Case Completion Times
Jump as Delays Lengthen (Dec. 21, 2020),
available at https://trac.syr.edu/immigration/reports/634/ ..................................................... 15

v
V

TABLE OF AUTHORITIES—Continued
Page(s)
Autobiography:
Mark Twain, Mark Twain’s
Twain's Autobiography:
Volume II (P.F. Collier & Son Co. 1924) .................. 2
A Reprint of "A
“A Method of
Abraham Wald, A
Estimating Plane Vulnerability Based on
Survivors” by Abraham
Abraham Wald
Damage of Survivors"
(Nov. 3, 1980), available at
https://apps.dtic.mil/dtic/tr/fulltext/u2/a091
https://apps.dtic.mil/dtichr/fulltext/u2/a091
073.pdf .................................................................... 19

No. 19-1212
_________
IIN
N THE
THE

Supreme Court
United iptatez
States
fpupreme
Court of
of the
tie Einiteb
_________
C
HAD F. W
OLF, ACTING
ACTING S
ECRETARY OF
CHAD
WOLF,
SECRETARY
HOMELAND
H
OMELAND S
ECURITY, et al.,
SECURITY,
Petitioners,
v.
v.
INNOVATION L
AW L
AB, et al.,
INNOVATION
LAW
LAB,
Respondents.
_________

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
_________
BRIEF OF AMICUS CURIAE
AMERICAN STATISTICAL ASSOCIATION
IN SUPPORT OF RESPONDENTS
_________
INTEREST OF AMICUS CURIAE
(“ASA”) reThe American Statistical Association ("ASA")
curiae.1 The
spectfully submits this brief as amicus curiae.1
world’s largest community of statisticians,
ASA is the world's
and one of the oldest continuously operating professional science societies in the United States. Its members generally hold advanced degrees and serve in industry, government and academia in more than 90

11 Pursuant to Rule 37.6, amicus affirms that no party or counsel for a party authored or paid for this brief in whole or in part,
brief’s preparation
or made a monetary contribution to fund the brief's
or submission. No one other than amicus or their members or
counsel made a monetary contribution to the brief. All parties
have consented to the filing of this brief.
(1)

2
countries, advancing research and promoting sound
statistical practice to inform public policy. With over
18,000 members, who are primarily but not exclusively located in the United States, the American Sta“Big Tent for Statistics"
Statistics”
tistical Association is the "Big
worldwide. Since its founding in 1839, the American
Statistical Association has supported excellence in the
development, application, and dissemination of statistical science through meetings, publications, membership services, education, accreditation, and advocacy.
The ASA has a strong interest in supporting the appropriate use of statistics, not only for academic, scientific, and commercial purposes, but also when used
to implement government policy and law. As this case
involves the application of statistics concerning the
application process for asylum seekers, the ASA provides herein its views concerning the potential misuse
case.2
of the cited asylum statistics in this case.2
INTRODUCTION AND
SUMMARY OF ARGUMENT
In his autobiography, American author and humor“[t]here are
ist Mark Twain famously stated that "[t]here
three kinds of lies: lies, damned lies, and statistics."
statistics.”
Autobiography: Volume II
Mark Twain, Mark Twain’s
Twain's Autobiography:
246 (P.F. Collier & Son Co. 1924). While it would be
eminently unfair to describe all statistics as lies, it
would be also unfair (and unjust) to use statistics to
mislead. Statistics is a noble science with a rich history of benefiting humanity. In an appropriate statistical analysis, equally important are the data and the
2
2

ASA’s interest is focused on the proper use of statistics
While ASA's
in this case (and generally in the law), ASA takes no position on
the wisdom or legality of the immigration policies or laws at issue
in this case.

3
assumptions used to generate and extrapolate from
the data. Because the field of statistics commonly relies upon the judicious use of assumptions, the literature in the field is filled with examples and corrections
for biases which may be injected as a result of those
assumptions. Careful comparisons with realistic assumptions provide statistical evidence that promotes
informed decision-making. But flawed comparisons
with unreasonable or unsupported assumptions can
be worse than none at all. They provide a scientific
veneer to a decision without any scientific basis, as
Mark Twain acknowledged in his famous quotation
above.
In this case, the Department of Homeland Security
(“DHS”) cites several statistics to justify its implemen("DHS")
(“MPP”), a
tation of the Migrant Protection Protocol ("MPP"),
policy which requires most asylum seekers from the
Northern Triangle countries (i.e., Guatemala, Honduras, and El Salvador) to remain in Mexico while awaiting adjudication of their asylum cases. Given DHS’s
DHS's
reliance on statistics to justify its implementation of
the MPP, it is imperative for trained statisticians to
comment on the appropriateness of the conclusions
that DHS has drawn.
Based upon a review of the briefs and record in this
case, ASA takes exception to the improper use of asylum statistics by DHS to support its justification of the
MPP. In particular, DHS relies on limited statistics
based on cases that concluded in fiscal year 2018
(“FY2018”) and uses these statistics to improperly
("FY2018")
suggest that most asylum claims are meritless or lack
DHS’s argument
a meritorious claim of credible fear. DHS's
regarding the lack of merit in asylum claims is improper because it repeatedly assumes, without justification or support, that most or all cases in which

4

asylum is not granted (or had not yet been granted in
that fiscal year) are somehow meritless, yet fails to account for other known factors that affect asylum grant
rates that can be unrelated to the merits of the asylum
claim.
Furthermore, DHS's
DHS’s reliance on statistical data
from FY2018 alone is also improper because such
FY2018 data may not be representative of all pending
cases. In other words, the asylum grant rates of cases
that concluded in FY2018 may not be representative
of all pending cases from the Northern Triangle countries, particularly given the increase of asylum seekers seen at the southern border in 2018 and the length
of time it takes for the adjudication of the most meritorious cases, typically several years.
Finally, DHS claims victory in implementing the
MPP, citing to a dramatic reduction in the number of
migrants attempting to cross the southern border. In
advancing this argument, however, not only does DHS
rely on its flawed statistics and assumptions, but it
also fails to consider whether the reduction in number
“weeding out"
out” of
of migrants was not the result of a "weeding
meritless asylum cases, but was rather due to other
factors independent of the MPP itself or simply the
substantial hardships that the MPP imposed upon
asylum seekers, discouraging many meritorious asylum claims.

ARGUMENT
I. DHS RELIES ON LIMITED STATISTICS IN
SUPPORT OF THE IMPLEMENTATION OF
ITS MIGRANT PROTECTION PROTOCOLS.
In its opening brief, DHS relies on several statistics
to defend its implementation of the MPP. In particu“surge of hundreds of
lar, DHS argues that a "surge

5

thousands of migrants”
migrants" occurred in 2018 at the southern border, many from the Northern Triangle counPet’rs’ Br. 7. When a migrant arrives at the
tries. Pet'rs'
southern border and claims fear of persecution or torture if returned home, the migrant will be subjected
to credible fear screening, a process which precedes
the migrant being allowed to apply for asylum in the
United States. 8 U.S.C. § 1225(b)(1); 8 C.F.R.
§ 208.16. DHS cites an increase in asylum seekers
passing credible fear screening, noting that while
about 77% passed in FY2008, up to 89% of asylum
seekers passed in FY2018. J.A. 113. Rather than seek
to determine whether factors taking place in the
Northern Triangle countries have actually increased
the risk of persecution or torture to asylum seekers,
“surge”
DHS instead speculates that this purported "surge"
was due to an erroneous understanding by migrants
that "if
“if the migrants simply claimed fear of return to
their home country once they reached the United
States (especially when traveling with children), they
States.” Pet’rs’
could gain release into the United States."
Pet'rs' Br.
8. Significantly, DHS’s
DHS's position is premised on the assumption that the large majority of those claims of
merit." Id. DHS
“overwhelmingly lacked merit.”
credible fear "overwhelmingly
asserts that Congress gave it authority to implement
policies such as the MPP to "weed
“weed[]
[] out [such] patently
meritless claims."
claims.” Id. at 4 (internal quotation marks
omitted).
As support for its belief that asylum claims overwhelmingly lack merit, DHS looks to select statistics
regarding Northern Triangle asylum seekers in
FY2018:
[A]mong the Northern Triangle aliens who
claimed fear and were referred for Section
1229a proceedings and whose cases were

6

completed in fiscal year 2018, only 54% filed an
asylum application, and only 9% were granted
asylum. J.A. 116-117. In 38% of cases, the
aliens did not even appear for immigration
proceedings. Ibid.
Id. at 8; see also J.A. 116 (describing these limited sta“particularly illuminating").
illuminating”). Notably, these
tistics as "particularly
numbers include only data from cases closed in
FY2018, many of which, DHS admits, may have been
pending for months or years. J.A. 113, 116. And the
underlying source for the statistics relied on by DHS
is its own Federal Register notice: Aliens Subject to a
Bar on Entry Under Certain Presidential Proclamations; Procedures for Protection Claims, 83 Fed. Reg.
55,934 (Nov. 9, 2018) (J.A. 61-146) ("Interim
(“Interim Final
Rule").
Rule”).
Based on these statistics, DHS argues that the MPP
Pet'rs' Br. 20 ("DHS
“enormously effective."
effective.” Pet’rs’
(“DHS
has been "enormously
has reported that MPP has enabled the agency to
avoid detaining or releasing into the United States
approximately 66,700 migrants during their removal
proceedings, and has contributed to a dramatic
reduction in the number of aliens approaching or
border.”). As deattempting to cross the southern border.").
scribed below, the data relied on by DHS is insufficient to support its assumptions. The statistics cannot support DHS's
DHS’s conclusions regarding the merits of
asylum claims or the effectiveness of the MPP.

7

II. DHS MAKES UNSUPPORTED ASSUMPTIONS CONCERNING THE ASYLUM PROCESS, WHICH LIMIT THE VALID CONCLUSIONS ONE CAN DRAW FROM THE STATISTICAL DATA.
As discussed above, DHS cites to certain statistics in
its opening brief as purported justification for its implementation of the MPP at the southern border.
These statistics are premised upon unsupported assumptions by DHS, which make it impossible to draw
the conclusions that DHS argues in its brief and asks
the Court to adopt.
A. DHS Erroneously Suggests That Nearly
Half Of Northern Triangle Asylum Seekers
Who Pass Credible Fear Screening Lack
Meritorious Asylum Claims.
In FY2018, immigration judges adjudicated 20,784
cases involving asylum seekers from the Northern
Triangle countries. J.A. 116. Based upon only these
resolved cases (which may have been filed months or
years earlier, and which ignore cases commenced in
FY2018 which had not yet been resolved), DHS reports that only 54% of asylum seekers even filed asylum applications, despite claiming credible fear at the
start of the process. Id.; Pet’rs’
Pet'rs' Br. 8. In its Interim
Final Rule, DHS presumes that most or all of the balcases—46%—must have lacked meritorious
ance of cases-46%—must
claims or, otherwise, the asylum seekers would have
“Given that those aliens asfiled asylum applications: "Given
serted a fear of persecution and progressed through
presumably
credible-fear screening, those aliens presumably
would have had the greatest reason to then pursue an
asylum application. Yet in only about 54% of those
application.” J.A.
cases did the alien file an asylum application."

8
116 (emphasis added). But DHS’s
DHS's presumption that
the 54% statistic represents the most meritorious
cases is not valid, as there is no basis, by logical deDHS’s conclusion
duction or based upon the data, for DHS's
that many or all of the other 46% of cases must have
been less meritorious.
There are many other known impediments to filing
asylum applications which make the DHS presumption invalid. For example, lack of legal counsel, illiteracy, and/or lack of English language fluency can all
seeker’s ability to subsignificantly impact an asylum seeker's
mit an asylum application, let alone to actually obtain
asylum. See, e.g., Transactional Records Access
Clearinghouse –
— Immigration, Syracuse University,
Asylum Representation Rates Have Fallen Amid
Amid
Asylum
tbl.2 (Nov. 28, 2017), available at
Rising Denial Rates tb1.2
https://trac.syr.edu/immigration/reports/491/
(comparing denial of asylum rates for asylum seekers with
and without legal representation by nationality in
FY2012-FY2017); J.A. 492 ¶ 30 (asylum seeker could
not read or understand paperwork related to asylum
claim because, inter alia, it was in English); J.A. 512513 ¶
If 21 ("The
(“The officer told me to sign several papers.
They were in English and I did not understand
them.”). DHS’s
them.").
DHS's 54% statistic—and the false presumption that most or all of the other 46% of cases are
somehow less meritorious—is therefore misleading at
best, and wholly unsupported. It is therefore improper to suggest that most or all of the remaining
46% of asylum seekers who had passed credible fear
screening would have had meritless asylum claims.

9

B. DHS Cannot Draw Valid Conclusions Regarding Meritorious Asylum Cases Using In
Absentia Rates.
Absentia
To further support its implementation and application of the MPP, DHS reports that 38% of Northern
Triangle asylum applicants did not appear for their
immigration proceedings in FY2018. Pet'rs'
Pet’rs’ Br. 8. According to the underlying source information, FY2018
“about 38% of aliens from
statistics showed that "about
Northern Triangle countries who were referred for
credible-fear interviews and passed to section 240 proceedings did not appear, and were ordered removed in
absentia. Put differently: . . . over a third [of aliens
from Northern Triangle countries who claimed a fear
of persecution and passed threshold screening] did not
proceedings." J.A. 116-117. The
appear at section 240 proceedings.”
import of this statement is to suggest that many or all
of these failures to appear are tacit admissions of a
lack of merit.
But this statistic, like the 54% application rate, is
also misleading because it makes an erroneous assumption: it fails to consider the reasons why asylum
“lack of noseekers may miss their hearing, including "lack
tice; government errors in providing notice; physical,
geographical and language obstacles; trauma and
mental health; and lack of legal representation."
representation.” See,
e.g., American Immigration Council, Immigrants and
Appear in Court: Setting the Record Straight
Families Appear
(July 30, 2019), available at https://www.americanimmigrationcouncil.org/research/immigrants-and-famimigrationcouncil.org/research/immigrants-and-families-appear-court.
Moreover, the 38% statistic also fails to account for
ongoing cases, many of which remain unresolved.
DHS’s source data explains that its statistics,
DHS's

10
“reflect initial case compleincluding the 38% rate, "reflect
tions by an immigration judge during the fiscal year .
.” J.A. 114 n.9. But because the figures only con. . ."
sider initial case completions, they do not account for
asylum seekers who have appeared in court in ongoing cases that have not yet been completed. This probDHS’s reliance
lem is particularly noteworthy given DHS's
on FY2018 data—a year in which an increase of migrants caused a disproportionate increase in new immigration cases and asylum claims. Pet'rs'
Pet’rs’ Br. 7; Ex(“EOIR”), U.S.
ecutive Office for Immigration Review ("EOIR"),
Dep't
Dep’t of Justice, FY2018 Yearbook 9 fig.5, available at
https://www.justice.gov/eoir/file/1198896/download
https
://www.justice.govieoir/file/1198896/download
(reproduced infra p. 18). As discussed in detail below
(see infra pp. 13-21), a fundamental statistical failure
DHS’s use of data
called selection bias appears to taint DHS's
3
limited to FY2018.
FY2018.3 As a result, the in absentia rate
cited by DHS does not support a conclusion that many
(or all) asylum seekers who failed to appear had meritless cases.
DHS’s 9% Asylum Grant Rate Is Misleading
C. DHS's
And Does Not Reflect The Merits Of Unadjudicated Asylum Claims.
DHS's
DHS’s brief also relies on its statistic that in FY2018
only 9% of asylum seekers from Northern Triangle
countries who passed a credible fear screening and
had their asylum applications adjudicated were actuPet'rs' Br. 8. By relying on this
ally granted asylum. Pet’rs’
DHS’s argument is to sugstatistic, the clear import of DHS's
gest that most or all of the other 91% of cases lack
meritorious asylum claims. See Pet’rs’
Pet'rs' Br. 8-9, 19-20.
3

Selection bias occurs when a nonrepresentative sample is erroneously selected to represent the entire population. See infra
pp. 13-15.

3

11
But this conclusion is based on the same erroneous
logic regarding the 54% asylum application rate and
DHS’s unthe 38% in absentia rate discussed above. DHS's
derlying data for the 9% grant rate presumes that this
rate exclusively represents asylum seekers with the
strongest asylum claims, and incorrectly assumes
that the other 91% of cases have little (and perhaps
no) merit: "Even
“Even among those aliens who received a
credible-fear interview, filed for asylum, and appeared
in section 240 proceedings to resolve their asylum
claims—a category that would logically include the
aliens with the greatest confidence in the merits of
their claims—only a very small percentage received
asylum.” J.A. 115. But as discussed above, many
asylum."
other factors apart from the merits play a crucial role
in whether or not a migrant is successful in his or her
asylum petition, which DHS’s
DHS's data fails to consider.
Thus, DHS's
DHS’s reliance on a 9% grant rate as justification for its argument that implementation of the MPP
“weeds out"
out” meritless asylum cases is misleading and
"weeds
lacks underlying statistical support.
“adjudiTellingly, when DHS limits itself to cases "adjudicated on the merits,”
i.e.,
cases
where
an
asylum
apmerits,"
plication has been filed and the applicant appeared at
“about 23%,"
23%,” over
the hearing, the grant rate rose to "about
2.5 times higher than the 9% statistic relied on in
DHS’s brief. Compare J.A. 117 ("And
(“And only 1,889 aliens
DHS's
from Northern Triangle countries were granted asylum, or . . . about 23% of cases where such aliens’
aliens' asylum claims were adjudicated on the merits.”)
merits.") with
Pet’rs’
(“[A]mong the Northern Triangle aliens
Pet'rs' Br. 8 ("[A]mong
who claimed fear and were referred for Section 1229a
proceedings and whose cases were completed in fiscal
asylum.”).
year 2018 . . . only 9% were granted asylum.").

12
Furthermore, even that 23% grant rate for asylum
applications is artificially low, because DHS admits
that its statistics do not capture denials that were due
to lack of merit, i.e., where the applicant was unable
to show a significant possibility of persecution if returned home, as opposed to any other reason DHS is
permitted to deny an application: "Because
“Because there may
be multiple bases for denying an asylum application
and immigration judges often make alternative findings for consideration of issues on appeal, EOIR does
not track reasons for asylum denials by immigration
level.” J.A. 116. In order to plug
judges at a granular level."
this obvious hole in its statistics, DHS speculates that
“[n]evertheless, experience indicates that the vast maInlevertheless,
jority of those asylum denials reflect a conclusion that
the alien failed to establish a significant possibility of
persecution, rather than the effect of a bar to asylum
eligibility or a discretionary decision by an immigration judge to deny asylum to an alien who qualifies as
refugee.” Id. (emphasis added). But this conclusion
a refugee."
is pure conjecture with no statistical support. At a
minimum, it means that there is no way to determine
whether such denials were due to lack of merit as opposed to any other reason. As a result, the 23% statistic is artificially low, as it is not based upon asylum
grants versus denials on the merits, but rather asylum grants versus denial on any ground, including denials not on merit. Thus, even DHS’s
DHS's 23% statistic
lacks underlying statistical support.
*
*
*
*
*
*

Thus, the three FY2018 statistics relied upon by
DHS in its brief do not support its assumption that
the vast majority of asylum claims by migrants from
“overwhelmingly
the Northern Triangle countries "overwhelmingly
lacked merit.”
merit." Pet’rs’
Pet'rs' Br. 8. Its argument attempts to

13
provide a scientific veneer of statistical support without any scientific basis.

III. DHS ASYLUM STATISTICS ARE TAINTED
BY SELECTION BIAS.
In the field of statistics, it is not uncommon to select
“sample”) in an
a subset of all potential cases (called a "sample")
attempt to draw conclusions regarding the entire
“population”). To properly
group of cases (called the "population").
do so, it is imperative to select a sample that is representative of the entire population. The gold standard
technique used to do so is called random sampling,
which means every case within the population has an
equal chance of being selected for inclusion in the
sample. By doing so, a statistician can be confident
that measurements made on a sample properly represents the entire population. If a sample is not representative, however, then measurements based on the
sample cannot be generalized to the entire population.
Making this mistake is a well-known pitfall in statistics known as selection bias, and is one of the most
pervasive and insidious statistical problems. See ShaAnalysis 1-18 (2d
ron L. Lohr, Sampling: Design and Analysis
ed. 2010).
By way of an analogy to explain the potential impact
of selection bias, imagine having to administer an
exam to students seeking entry into college. Of
course, the most accurate way to determine the overall passage rate of such an exam would be to uniformly
grade each exam and calculate the percentage of all
test takers. There would be no selection bias in this
process because all exams would have been graded
(i.e., the entire population was considered). Alternatively, a random sample of all test takers could be obtained, and the passage rate of this set of exams could

14
be viewed as representative of the population. Again,
no selection bias exists by constructing the sample
through random selection.
But imagine that the number of students seeking a
college education is increasing, and the college administration has requested that you provide an estimate
of the passage rate before all of the exams have been
graded. The college is interested in an estimate so
that it can consider changes to admission policies that
may be necessary to address the increase of applications. Thus, the problem before you is to devise a
method to estimate the passage rate using a sample of
exams.
As your solution, you decide to grade the exams in
the order that they were submitted. When you reach
the deadline to provide your estimate to college administration, you report only the passage rate of the
exams graded so far, even though many more exams
have not yet been submitted or graded.
By grading the exams in the order submitted, and
cutting off consideration of exams submitted later,
you introduced selection bias. There may be many
reasons why students submit exams early, including
that they simply gave up, or, conversely, that they
found the exam very easy to complete. These reasons
may skew (or bias) the estimate and must be accounted for in order to draw a proper conclusion. In
other words, a sample of the pass rates of students
who finished the exam early may not be representative of the entire population of students who took the
exam, and a conclusion regarding the overall pass rate
cannot be drawn.
Upon careful consideration of the statistics DHS relies upon to justify the MPP, it is apparent that

15
selection bias is present in those statistics. In particular, DHS relies only on cases completed in FY2018,
but admits that there was an increase of asylum seekers at the southern border that year and that some
cases take months or years to adjudicate. As discussed below, this injects selection bias in several
ways.
DHS’s Reliance On Cases Completed In
A. DHS's
FY2018 Fails To Account For The Typical
Completion Timeline In Asylum Cases.
Relying on cases where an asylum seeker claimed
fear and his or her case was completed in FY2018,
DHS states that only 54% filed an asylum application
and only 9% were granted asylum, and then uses
these numbers to suggest that most asylum claims fail
and are meritless. Pet’rs’
Pet'rs' Br. 8. However, DHS failed
to include cases where an asylum seeker claimed fear,
but his or her case was not concluded within FY2018.
FY2018.44
Due to backlogs in the system, asylum cases may take
J.A. 113;
months or years to adjudicate.
– ImmiTransactional Records Access Clearinghouse —
gration, Syracuse University, Immigration Court
Case Completion Times Jump as Delays Lengthen
fig.1
21,
(Dec.
2020),
available
at
https://trac.syr.edu/immigration/reports/634/ (reflecthttpsi/trac.syr.edu/immigration/reports/634/
ing an average of over 500 days for case completions
44 DHS states that immigration judges in section 240 proceedings adjudicated 20,784 cases involving nationals of Northern
Triangle countries who were referred for credible fear interviews
and then referred to section 240 proceedings. J.A. 116. As compared to the number of immigration courts cases involving nationals of Northern Triangle countries that originated with a
credible fear referral that were pending as of November 2, 2018
(136,554 cases, J.A. 113), that completed case number represents
only about 15% of pending cases.

16
in immigration court cases in FY2018). Furthermore,
many cases completed in FY2018 did not originate in
“likely referred for credible-fear
2018, but were cases "likely
2018,” which also demonscreening between 2015 and 2018,"
strates that it is not unusual for cases to take years to
adjudicate. J.A. 114. Because the pattern of cases
that concluded in FY2018 may not be representative
of the entire population of cases, DHS cannot properly
conclude that most claims fail, or are meritless, based
on the subset of cases concluded in FY2018 alone. In
fact, DHS cannot even properly base conclusions on
the overall asylum rates (i.e., rates of all cases,
whether or not they concluded in FY2018) based on
this limited subset of data alone.
In relying only on data from cases concluded in
FY2018, DHS fails to consider whether cases that are
resolved more quickly have a higher tendency to yield
lower rates of meritorious cases and grants of asylum,
as they include cases in which no asylum application
was filed and cases in which removal was ordered in
absentia. Cases in which an asylum application was
filed and the asylum seeker appeared at his/her hearing generally require more time to adjudicate, and
lead to significantly higher asylum grant rates. See
J.A. 117. By relying only on data from cases that were
completed within the year, the dataset may generate
an artificially high failure rate. Furthermore, DHS
failed to account for the increase of asylum seekers in
2018, which may have led to a greater number of quick
denials for asylum in 2018 while the meritorious cases
may not have been resolved in 2018. Therefore, the
subset of cases that were adjudicated quickly is not a
proper random subset of cases on which conclusions
can be drawn regarding asylum rates of the entire
population of cases.

17
DHS’s Reliance On FY2018 Statistics Alone
B. DHS's
Improperly Assumes That One Fiscal Year
Is Representative Of All Future Cases.
DHS cites FY2018 data alone to suggest that most
asylum claims fail and most asylum claims are meritless. Pet’rs’
Pet'rs' Br. 8. However, DHS argues that in 2018,
“a surge of hundreds of
the United States experienced "a
thousands of migrants, many from the Northern Triangle of Central America...,
America . . . , [who] attempted to cross
through Mexico to enter the United States."
States.” Id. at 7.
DHS’s arguments based on its statistics are invalid
DHS's
because they do not account for this increase or address how it may affect asylum rates.
Other statistics from FY2018 indicate that the increase in total number of cases in 2018 may well have
had an impact on the numbers across the board. For
example, according to EOIR’s
EOIR's FY2018 statistics yearbook, there was an increase of 31,664 initial case completions ("ICC")5
(“ICC”)5 in FY2018 as compared to FY2017
(an increase of 21%). EOIR FY2018 Yearbook, supra,
9 fig.5, reproduced as Table 1 below.6
below.6 Although the
5

EOIR defines an ICC as "the
“the first dispositive decision ren5
dered by an immigration judge. For instance, an I-862 removal
case is completed by an order of removal, relief, voluntary departure, termination, or other. An order granting a continuance,
changing venue, or administratively closing a case is not a dispositive decision and, thus, does not constitute a case completion."
tion.” EOIR FY2018 Yearbook, supra, at 5.
6

6
Figure 5 of EOIR’s
EOIR's yearbook is misleading because although
the initial case completions (represented by the dark green bars)
are greater than 180,000 in FY2018, the y-axis of the chart does
chart’s visual
not go higher than 120,000. As a result, the chart's
presentation of the number of ICCs as compared to the other categories shown is grossly misleading; by looking at the dark green
bars alone, one might be misled to believe that the number of

18
EOIR yearbook does not indicate the reasons for the
increase in ICCs in FY2018, the fact that there was a
substantial increase is indicative that the numbers
across the board may have been affected by the increase in migrants in 2018. Therefore, using FY2018
alone, conclusions cannot properly be drawn regarding the statistics of any other year, and cannot be indicative of the statistics of future years.
Figure 5. 1-862 Immigration Court Matters Completed by Type

120,000
80,000
40,000

0
• Initial Case Completions

I,I 1e _I
FY 15

FY 17

FY 18

128,464 131,431 130,554 150,757 182,421

Subsequent Case
Completions

10,629

9,670

10,070

9,049

9,656

Bonds

59,869

59,563

62,218

77,387

91,056

4,376

4,264

4,397

6,083

8,233

■ Motions (Not Granted)
Total

203,338 204,928 207.239 243,276 291,366

TABLE
EOIR's FY2018 Yearbook.
TABLE 1: Figure 5 from EOIR’s
DHS’s
DHS's reliance on data from FY2018 alone is also
problematic because only a small subset of cases were
completed during that fiscal year, and the impact of
the remaining cases on the statistics is unknown. Due
to backlogs in the system, there were 136,554 total
cases involving Northern Triangle migrants pending
in the immigration courts that originated with a credible fear referral as of November 2, 2018. J.A. 113. In
FY2018, immigration judges completed just 20,784
cases, a small number as compared to the total number of pending cases. J.A. 116. It is improper to rely
ICCs between FY2017 and FY2018 are similar when in fact there
was a 21% increase, and the growth in the number of ICCs from
FY2016 to FY2018 looks relatively flat, when there was in fact
an increase of approximately 40%.

19
on such a small subset of the population and assume
that it is representative of the entire population, especially because DHS has not made any efforts to explain why it is representative.
DHS’s Selection Bias Is Analogous To ClasC. DHS's
sic Examples Of Selection Bias In The Statistics Literature.

One classic example of selection bias in statistics is
known as the "Wald's
“Wald’s Planes”
Planes" problem. See Abraham
A Reprint of "A
“A Method of Estimating Plane
Wald, A
Survivors” by AbraAbraVulnerability Based on Damage of Survivors"
ham Wald (Nov. 3, 1980), available at
https://apps.dtic.mil/dtic/tr/fulltext/u2/a091073.pdf;
Abraham
Marc Mangel & Francisco J. Samaniego, Abraham
Wald’s
Aircraft Survivability, 79 J. Am. Stat.
Wald's Work on Aircraft
Ass’n 259, 259-267 (1984). During World War II, enAss'n
gineers would study planes that returned from missions riddled with bullet holes and bolster the areas
where the bullet holes were concentrated, reasoning
that this was where the plane was most vulnerable.
However, Wald recognized that these holes were actually where the planes were least vulnerable, because
those planes actually returned from their missions,
whereas planes with bullet holes concentrated in
other regions were shot down and never returned. See
Jordan Ellenberg, How Not to be Wrong: The Power of
engineers' erMathematical Thinking 6 (2014). The engineers’
roneous reasoning is a well-recognized example of selection bias, as the engineers only examined planes
that returned from their mission, which were not representative of all planes.
As in the Wald's
Wald’s Planes example, DHS’s
DHS's brief focuses on cases that may not be representative of the
entire universe of asylum cases. Just as engineers

20
focused incorrectly on the surviving planes to determine where to bolster the planes, DHS incorrectly excludes cases that are not yet complete to reach its conclusion that most asylum claims are meritless.
Another well-known example of selection bias is
known as the "healthy
“healthy worker"
worker” effect. See A.J. McMichael, R. Spirtas & L. L. Kupper, An
An Epidemiological
Study of Mortality within a Cohort of Rubber Workers,
1964-72, 16 J. Occupational Med. 458, 462 (1974);
N.E. Breslow & N.E. Day, Intl
Int’l Agency for Rsch. on
Cancer, World Health Org., Statistical Methods In
Cancer Research: Volume II—The Design and AnalyAnalysis of Cohort Studies 17-18 (1987). Since the industrial revolution, business owners have studied occupational hazards, initially by comparing the health of
factory workers to the health of the general population
who lived nearby. From these comparisons, it was
found that workers in industrial towns with notorious
occupational hazards were generally healthier than
residents of the nearby town. On this basis, businesses argued that workers were not disproportionally at risk and dismissed concerns about occupational
hazards. However, this is another example of selection bias: the studies failed to account for the fact that
businesses generally hired workers who were healthy
enough to begin working and remained healthy
enough to continue working, whereas nearby towns
included people who were not healthy enough to work
and/or whose health had deteriorated as a result of
the work. Thus, the current workers were not representative of their proximate counterparts because a
study of the workers was inherently more likely to
yield a healthy result.
Similarly, DHS is improperly focusing on a particular subset of the population that is more likely to yield

21
a particular result and does not take other potential
factors into account. Just as a comparison of the
health of workers to non-workers alone cannot be used
to conclude that workers do not face disproportionate
health risks, a sample of cases that ended in FY2018
cannot be used to conclude that most cases do not have
merit. Both scenarios fail to consider other factors.
The healthy worker example fails to consider that
healthy individuals are more likely to work, whereas
DHS fails to consider that the cases that are quickly
resolved are more likely to result in a denial of asylum. This problem is compounded by the purported
Pet'rs'
“surge” of Northern Triangle migrants in 2018. Pet’rs’
"surge"
Br. 7.
IV.THE REDUCTION IN MIGRANTS ARRIVING
AT THE SOUTHERN BORDER CANNOT
PROPERLY BE CLAIMED TO REFLECT A
REDUCTION IN MERITLESS ASYLUM
CLAIMS UNDER THE MPP.
In its brief, DHS argues that the MPP has been
“enormously effective,"
effective,” citing a "dramatic
“dramatic reduction"
reduction”
"enormously
in the number of migrants attempting to cross the
southern border and the purported reduction of
66,700 migrants detained or released into the United
States. Id. at 20. While the MPP may have reduced
the actual number of migrants approaching the border and detained/released into the United States, this
cannot be properly claimed to be the result of the MPP
“weed[ing]
out” meritless asylum claims. Id. at 4 (in"weed
[ing] out"
ternal quotation marks omitted). Such a conclusion is
scientifically untenable as it erroneously assumes,
without any evidence, that the migrants deterred
from reaching the border and/or those who were not

22
detained or released into the United States did not
have meritorious asylum claims.
It is well known in statistics that mere correlation
does not equal causation. What this means is that observing two statistics moving together does not mean
that an increase in one is causing an increase in the
other. A well-known example of this principle is the
correlation between increased ice cream consumption
and increased physical assault rates. Susan Carol
Losh, Dependent and Independent Variables, The
Wiley Blackwell Encyclopedia of Social Theory 2
(2017). While it would be absurd to conclude that an
increased consumption of ice cream was causing more
physical assaults, the data do correlate, maybe even
strongly. But using statistics in this manner is incorrect as the analysis is not designed to prove causation.
Id. ("This
(“This spurious correlation does not happen because some mysterious ingredient in ice cream provokes violence. Rather, it occurs because soaring temperatures increase both ice-cream consumption and
assaults, an example of how correlation does not imply
causation.”).
causation.").
This fundamental principle is also well-known in the
law. For example, courts have held in several situations that mere correlation is insufficient to prove cauAss’n, 564 U.S.
sation. See, e.g., Brown v. Ent. Merchs. Ass'n,
786, 800 (2011) (rejecting numerous studies that purport to show that exposure to violent video games
“[n]early
causes harmful effects on children, because In]
early
all of the research is based on correlation, not evidence
causation” and "[t]hey
“[t]hey show at best some correlaof causation"
tion” (internal quotation marks omitted)); Students
tion"
Admissions, Inc. v. President & Fellows of
for Fair Admissions,
Harvard Coll., 980 F.3d 157, 199-200 (1st Cir. 2020)
(finding that although statistical evidence that a

23
personal rating used in college admission was correlated with race, it did not show it was influenced by
race); Verisign, Inc. v. XYZ.COM LLC, 848 F.3d 292,
court’s decision
300 (4th Cir. 2017) (affirming district court's
to exclude an expert report because it failed to distinguish between correlation and causation).

Applying this fundamental principle to the implementation of the MPP, it is incorrect for DHS to conclude that the MPP reduced meritless asylum claims
based solely on the reduction of migrants approaching
the border and the reduction of migrants detained or
released into the United States after the MPP was implemented. Pet’rs’
Pet'rs' Br. 20. Without an appropriate
statistical analysis using reasonable assumptions,
DHS cannot support its conclusion, as it ignores all
other factors which may have influenced the reduction
in asylum seekers. For example, DHS failed to consider whether asylum seekers with meritorious asylum claims may have been dissuaded from even applying for asylum as a result of harsh conditions cre(“The dangers [asylum
ated by the MPP. Resp. Br. 7-8 ("The
seekers] face in Mexico, the challenges of obtaining legal assistance from Mexico, and the delays in the
scheduling of their removal proceedings, have led
many to abandon altogether bona fide
fide claims for protection.”);
id.
at
8
(“Independent
reporting
confirms
tection.");
("Independent
that asylum seekers face a pattern of kidnappings, extortion, and death—and that many persons subject to
MPP are forced to abandon their claims as a result.”);
result.");
“grave risks that miid. at 36-37 (detailing numerous "grave
grants face in Mexico”
Mexico" while awaiting their hearing
date). Similarly, DHS failed to consider whether the
social or economic reasons that precipitated the purported "surge"
“surge” seen in 2018 may have changed,
thereby reducing the number of migrants who felt

24
compelled to seek asylum. Thus, absent a proper statistical study, the fact that the number of migrants
has been reduced after implementation of the MPP
“weedcannot properly be claimed to demonstrate the "weedout” of meritless asylum claims.
ing out"
V. STATISTICAL DATA GENERATED AFTER
MPP’S IMPLEMENTATION CANNOT
THE MPP'S
BE USED TO JUSTIFY THE MPP.
Finally, DHS cites the reduction of 66,700 migrants
detained or released into the United States after the
implementation of the MPP to support its conclusion
“enormously effective."
effective.” Pet’rs’
that the MPP was "enormously
Pet'rs' Br.
20. But this conclusion ignores the fact that any data
collected after the January 28, 2019 implementation
date of the MPP may well have been influenced by instituting the policy itself. In fact, the mere implementation of the MPP itself complicates (and potentially
confounds) the statistical problem of determining the
rate of meritless asylum cases emanating from the
Northern Triangle countries as it adds an additional
factor to the analysis. To simply (and erroneously) assume that a reduction in asylum seekers is due to a
“weeding out"
out” of meritless asylum claims, relying on a
"weeding
reduction in the data caused by implementing the
MPP is a self-fulfilling prophecy that is not scientifically sound. As a result, reliance on later data collected after the January 28, 2019 implementation of
the MPP does not answer the core question of what
percentage of asylum cases from the Northern Triangle countries are, in fact, meritless.

CONCLUSION
For the foregoing reasons, while ASA takes no position on the wisdom or legality of the immigration policies at issue in this case, DHS’s
DHS's use of statistics to

25
justify its adoption and implementation of the MPP is
improper and should not be used to support its validity.
Respectfully submitted,
LEONARD
JASON A. L
EONARD
JASON
Counsel of Record
IIRA
RA M. F
EINBERG
FEINBERG
N
ITYA ANAND
ANAND
NITYA
VINCENT
LII
VINCENT L
HOGAN L
LOVELLS
OVELLS US LLP
HOGAN
390 Madison Avenue
New York, NY 10017
(212) 918-3782
jason.leonard@hoganlovells.com
jasonleonard@hoganlovells.com

Counsel for Amicus
Amicus Curiae
JANUARY
JANUARY 22, 2021

